ATTORNEY FOR TARRANT COUNTY, TEXAS:
Mr. Melvin Keith Ogle
Assistant Criminal District Attorney
District Attorney’s Office
for the County of Tarrant
401 W. Belknap Street
9th Floor - Civil
Fort Worth, Texas 76102
817.884.1233
mkogle@tarrantcountytx.gov
ATTORNEYS FOR PATRICIA BACA-BENNETT, KENNETH EARL NEWELL, JESUS
NAVAREZ, JR., HONORABLE JUDITH WELLS, JEROME S. HENNIGAN, JAMES B.
MUNFORD, AND ALEX KIM:
Ms. Natalie Deyo Thompson
Assistant Solicitor General
Ms. Lanora Christine Pettit
Assistant Solicitor General
Mr. Benjamin Walton
Assistant Solicitor General
Office of the Attorney General
Office of the Solicitor General
300 West 15th Street
Austin, Texas 78701
512.936.1700
512.463.2127
512.936.1700
Natalie.thompson@oag.texas.gov
lanora.pettit@oag.texas.gov
benjamin.walton@oag.texas.gov

